Mount Carmel Health Plan, Inc., Prompt Payment Review
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Mount Carmel Health Plan, Inc., Prompt Payment Review," (A-05-04-00035)
September 8, 2004
Complete Text of Report is available in PDF format (98 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Mount Carmel Health Plan substantially complied with Federal prompt payment regulations to pay at least 95 percent of clean claims within 30 days and calculate interest on clean claims not paid within 30 days.  However, Mount Carmel did not pay or deny all claims within 60 days of receipt.  As a result, some non-contracted providers were not paid timely and accurately.   Mount Carmel Health Plan concurred with our recommendation to improve its procedures to ensure that all claims are paid or denied within 60 days of receipt.